No. 20-1362
______________________________________________________________
IN THE
SUPREME COURT of the UNITED STATES
_________________♦_________________
DAVDRIN GOFFIN,
Petitioner,
vs.
ROBBIE K. ASHCRAFT, INDIVIDUALLY AND OFFICIAL
CAPACITY AS POLICE OFFICER WARREN, AR,
Respondent.
_________________♦_________________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit
_________________♦_________________
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI
_________________♦_________________
Timothy T. Coates
Counsel of Record
GREINES, MARTIN, STEIN &
RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com
Jenna A. Adams
ARKANSAS MUNICIPAL LEAGUE
Post Office Box 38
North Little Rock, Arkansas 72115
Telephone: (501) 978-6136
Facsimile: (501) 978-6567
E-mail: jenadams@arml.org
Counsel for Respondent ROBBIE K. ASHCRAFT, Individually and
Official Capacity as Police Officer Warren, AR

i
QUESTION PRESENTED
For purposes of qualified immunity, is it “beyond debate,”
under clearly established law, that one officer’s brief pat
down search of a felony suspect who is reported to be
armed and dangerous and carrying concealed weapons,
establishes per se that the suspect is no longer armed, for
purposes of another officer’s use of deadly force when the
suspect breaks away from handcuffing and appears to
reach into a pocket while fleeing towards bystanders?

ii
TABLE OF CONTENTS
QUESTION PRESENTED

Page
i

TABLE OF AUTHORITIES
STATEMENT OF THE CASE

iii
1

A.

The Underlying Incident And District
Court Decision.

1

B.

The Eighth Circuit Affirms The District
Court, Finding That Respondent Is Entitled
To Qualified Immunity.

4

REASONS FOR DENYING THE PETITION
REVIEW IS UNWARRANTED BECAUSE THE
EIGHTH CIRCUIT CORRECTLY APPLIED
SETTLED LAW FROM THIS COURT HOLDING
THAT OFFICERS ARE GENERALLY ENTITLED
TO QUALIFIED IMMUNITY IN FOURTH
AMENDMENT CASES IN THE ABSENCE OF
EXISTING PRECEDENT THAT SQUARELY
GOVERNS THE SPECIFIC FACTS AT ISSUE.
A.

B.

C.

D.

This Court Has Repeatedly Recognized The
Importance Of Qualified Immunity To
Assure That Officers Are Not Subjected To The
Burden Of Litigation And Threat Of Liability
When Making Split-Second Decisions Under
Tense, Rapidly Evolving Circumstances In The
Course Of Protecting The Public.

6

6

6

No Clearly Established Law Put Respondent
On Notice That Her Use Of Force Might
Violate The Fourth Amendment.

11

Petitioner Identifies No Conflict Among The
Circuits On An Important Issue of Law
Warranting Intervention By This Court.

16

There Is No Basis For Remand Based On Of
This Court’s Decision In Taylor v. Riojas.

20

CONCLUSION

22

iii
TABLE OF AUTHORITIES

Page(s)

Cases
A.K.H. by & through Landeros v. City of Tustin,
837 F.3d 1005 (9th Cir. 2016)

19

Brosseau v. Haugen,
543 U.S. 194 (2004)

12

Carr v. Castle,
337 F.3d 1221 (10th Cir. 2003)

19-20

City and County of San Francisco v. Sheehan,
575 U.S. 600 (2015)

6, 10

City of Escondido v. Emmons,
__U.S. __, 139 S. Ct. 500 (2019)

9-11

Davis v. Little,
851 F.2d 605 (2d Cir. 1988)

17-18

Graham v. Connor,
490 U.S. 386 (1989)

12-13

Gravelet-Blondin v. Shelton,
728 F.3d 1086 (9th Cir. 2013)

9-10

Harlow v. Fitzgerald,
457 U.S. 800 (1982)

7

Hope v. Pelzer,
536 U.S. 730 (2002)

12, 16, 21

Kisela v. Hughes,
__ U.S. __, 138 S. Ct. 1148 (2018)
Lombardo v. City of St. Louis,
No. 20-391, __ U.S. __, 2021 WL 2637856 (June 28, 2021)
Mullenix v. Luna,
577 U.S. 7 (2015)
O’Bert ex rel. Estate of O’Bert v. Vargo,
331 F.3d 29 (2d Cir. 2003)

8-9, 11
21
6, 9, 11
16-17

iv
TABLE OF AUTHORITIES—(continued)
Page(s)
Plumhoff v. Rickard,
572 U.S. ___, 134 S. Ct. 2012 (2014)

12

Streater v. Wilson,
565 F. App’x. 208 (4th Cir. 2014)

18

Taylor v. Riojas,
___U.S. ___, 141 S. Ct. 52 (2020)

20-21

Tennessee v. Garner,
471 U.S. 1 (1985)

12-13, 16

Thompson v. Hubbard,
257 F.3d 896 (8th Cir. 2001)
White v. Pauly,
__ U.S. __, 137 S. Ct. 548 (2017)

14
7-8, 10-13, passim

United States Constitution
United States Constitution,
Amendment IV
Amendment VIII

4, 6, 11, passim
21

Other Authorities
Bogosian, I thought you did it: the importance of searching
suspects well (July 27, 2015) <https://www.police1.com/
police-products/apparel/articles/i-thought-you-did-it-the
-importance-of-searching-suspects-well-cVxHDeG3aaNM5GBZ/>
[last visited July 12, 2021]

15

<https://northamericanarms.com/shop/firearms/naa-22s/>
[last visited July 12, 2021]

14

<https://ruger.com/products/lcpII/specSheets/13705.html>
[last visited July 12, 2021]

14

<https://www.keltecweapons.com/firearms/pistols/p32/>
[last visited July 12, 2021]

14

<https://www.smith-wesson.com/product/bodyguard-38>
[last visited July 12, 2021]

14

1
STATEMENT OF THE CASE
A.

The Underlying Incident And District Court
Decision.

In September 2012, petitioner Goffin’s uncle, Tommy Reddick,
reported to respondent Officer Ashcraft and Officer Aaron Hines that
his home had been burgled—and he suspected Goffin was responsible
for stealing two handguns, a box of bullets, and a bottle of painkillers.
(Appendix To Petition, “Pet. App.” 2a.) Reddick told them that earlier
that day Goffin came to his house and asked for a gun, explaining that
he lost his own pistol fleeing from the police. (Id.) Reddick refused
and left the house. (Id.) When Reddick returned, he saw Goffin was
still nearby, arguing with a man in a black pickup truck. (Id.) Inside
his house, Reddick discovered that someone had snuck in through a
back window, broken down a bedroom door, and stolen guns,
ammunition, and pills. (Id.) Reddick warned respondent Ashcraft,
“This dude is out of control!” and, “Y’all better be ready to fight when
you find him.” (Id.)
The officers started searching for Goffin, and respondent
Ashcraft stopped a black truck that looked like the one Reddick had
described. (Id. at 3a.) The driver, Dewayne Moore, told Ashcraft that
earlier Goffin had asked him for a ride. (Id.) Moore had initially
refused, but Goffin threatened him, saying “take me to the goddamn
car wash” and then displayed two guns that matched the descriptions
of Reddick’s stolen pistols. (Id.) Understandably frightened, Moore
gave Goffin a ride. (Id.) Moore, as had Reddick, warned respondent
Ashcraft about Goffin, telling her that Goffin was drunk and that

2
Moore was scared he would rob him. (Id.) After the shooting, he
recounted to police that Goffin looked like he “was going to do
something stupid,” like he didn’t “give a damn . . . like, I’m going to
take you out or whatever.” (Id.)
After interviewing Moore, respondent Ashcraft received a call
from Officer Hines advising her that Goffin was at a nearby body shop.
(Id.) The officers arrived separately but then walked together toward a
crowd of people in the parking lot. (Id.) Respondent Ashcraft asked
where Goffin was and the owner of the body shop directed the officers
toward the garage. (Id.) The officers found Goffin sitting in a car in
front of the garage, talking on a Bluetooth headset. (Id.) The officers
approached the vehicle with guns drawn, but before they got there,
Officer Hines holstered his pistol and drew a taser. (Id.)
The officers demanded that Goffin exit with his hands raised,
which he did. (Id.) They then escorted him to the back of the car and
respondent Ashcraft saw something “bumping in [Goffin’s] right front
pocket,” though Goffin denies anything was in that pocket. (Id.)
According to Goffin, at the rear of the vehicle Officer Hines patted him
down and “searched every part of [his] body,” including feeling for
items in his pockets and around his waist, though Goffin admits
Officer Hines “didn’t go into [his] pockets” and did not remove anything
from his body. (Id.)
Officer Hines started to place Goffin in handcuffs, but before he
could finish, Goffin pushed off the car and fled toward a group of seven
or eight bystanders. (Id.) With his back to the officers, he raised his
right shoulder, which respondent Ashcraft interpreted as a reach for

3
something in his pocket or his waistband, and as a result she shot him
once in the back. (Id. at 3a-4a.)
The shooting occurred in a “split second” with Goffin asserting
he took no more than two steps and respondent Ashcraft
acknowledging that Goffin had traveled only “a very short distance”
before she fired. (Id. at 4a.) After he was shot, officers discovered that
although Goffin did not have a weapon on him, the patdown had
missed a loaded 9mm pistol magazine and several loose bullets. (Id.)
The stolen guns were later discovered within reach of where Goffin had
been sitting in the car. (Id.)
Goffin subsequently brought a 1983 action against respondent
Ashcraft, the city, and several other municipal employees, claiming
that Ashcraft used excessive force against him and that the other
defendants had failed to properly train and supervise her. (Id.) The
district court granted summary judgment to the defendants, finding
that respondent Ashcraft was entitled to qualified immunity because
her actions were objectively reasonable as a matter of law. As the
district court noted:
Ashcraft had been told that Goffin had stolen two guns
and ammunition from Reddick’s house. Ashcraft knew
Goffin had an outstanding warrant for aggravated
robbery and had been told that Goffin was running from
the police. Moore told Ashcraft that Goffin had two guns
in his pockets and had brandished the two guns as he
demanded a ride to the car wash. Ashcraft had reason to
believe that Goffin was armed and that a gun could be in
his pocket. She could not see Goffin’s hands as he
attempted to flee and raised his right shoulder, and, thus,
her belief that Goffin posed a threat to her safety was
objectively reasonable. Further, a reasonable officer could
believe that Goffin posed a threat to nearby bystanders as

4
he began to run towards a group of seven or eight people.
Goffin admitted that, if he would have continued running,
he would have run right into the bystanders.
(Pet. App. 35a.)
With respect to the brief search of petitioner just before he
attempted to flee, the court observed:
Nothing was seized from Goffin’s pockets as a result of the
pat down, and Goffin had a loaded magazine and bullets
in his pockets. The fact that Ashcraft knew that a pat
down occurred when nothing had yet been seized from
Goffin’s pockets does not necessarily support a finding
that Ashcraft knew Goffin was unarmed or that her
conduct was objectively unreasonable.
(Id. at 34a.)
Because the underlying excessive force claim failed, so did
Goffin’s claims against the other defendants. (Id. at 37a.) After
dismissing all federal claims, the district court declined to exercise
supplemental jurisdiction over the remaining state-law claims. (Id. at
38a-39a.) Goffin timely appealed.
B.

The Eighth Circuit Affirms The District Court,
Finding That Respondent Is Entitled To Qualified
Immunity.

Following briefing and oral argument, the Eighth Circuit issued
its initial opinion affirming the judgment and finding that respondent
was entitled to qualified immunity based on the absence of clearly
established law indicating that his use of force would violate the
Fourth Amendment. (Pet. App. 16a-22a.) Following petitioner’s
petition for rehearing, the court withdrew the prior opinion and issued

5
a 2-1 decision again affirming summary judgment for respondent
based on qualified immunity. (Pet. App. 1a-7a.) The court noted that
no clearly established law would have put respondent on notice that
she was required to assume that the search of petitioner by a fellow
officer was so thorough as to render unreasonable as a matter of law
any belief that respondent potentially had a weapon that could render
him a danger to the public as he fled officers toward a group of
bystanders:
Officer Ashcraft is entitled to summary judgment because
it is not clearly established that after observing a pat
down that removes nothing from a suspect who an officer
reasonably believed to be armed and dangerous, an officer
cannot use lethal force against that suspect when he flees
and moves as though he is reaching for a weapon. Nor do
we think this is the “rare obvious case” in which “the
unlawfulness of the officer’s conduct is sufficiently clear
even though existing precedent does not address similar
circumstances.” District of Columbia v. Wesby, 138 S. Ct.
577, 590 (2018) (quotation omitted).
(Pet. App. 7a.)
_________________♦_________________

6
REASONS FOR DENYING THE PETITION
REVIEW IS UNWARRANTED BECAUSE THE EIGHTH
CIRCUIT CORRECTLY APPLIED SETTLED LAW FROM
THIS COURT HOLDING THAT OFFICERS ARE
GENERALLY ENTITLED TO QUALIFIED IMMUNITY IN
FOURTH AMENDMENT CASES IN THE ABSENCE OF
EXISTING PRECEDENT THAT SQUARELY GOVERNS
THE SPECIFIC FACTS AT ISSUE.
A.

This Court Has Repeatedly Recognized The
Importance Of Qualified Immunity To Assure That
Officers Are Not Subjected To The Burden Of
Litigation And Threat Of Liability When Making
Split-Second Decisions Under Tense, Rapidly
Evolving Circumstances In The Course Of
Protecting The Public.

An officer is entitled to qualified immunity when his or her
conduct “‘does not violate clearly established statutory or
constitutional rights of which a reasonable person would have known.’”
Mullenix v. Luna, 577 U.S. 7, 11 (2015) (per curiam). While this
Court’s case law “‘do[es] not require a case directly on point’” for a right
to be clearly established, “‘existing precedent must have placed the
statutory or constitutional question beyond debate.’” Id. at 12. In
short, immunity protects “‘all but the plainly incompetent or those who
knowingly violate the law.’” Id.
This Court has recognized that qualified immunity is important
to society as a whole. City and County of San Francisco v. Sheehan,

7
575 U.S. 600, 611 n.3 (2015); White v. Pauly, __ U.S. __, 137 S. Ct. 548,
551 (2017) (per curiam). It assures that officers, when confronted with
uncertain circumstances, may freely exercise their judgment in the
public interest, without undue fear of entanglement in litigation and
the threat of potential liability. Harlow v. Fitzgerald, 457 U.S. 800,
819 (1982) (“[W]here an official’s duties legitimately require action in
which clearly established rights are not implicated, the public interest
may be better served by action taken ‘with independence and without
fear of consequences.’”).
As the Court observed in Harlow, failure to apply qualified
immunity inflicts “social costs,” which “include the expenses of
litigation, the diversion of official energy from pressing public issues,
and the deterrence of able citizens from acceptance of public office,” as
well as “the danger that fear of being sued will ‘dampen the ardor of all
but the most resolute, or the most irresponsible [public officials], in the
unflinching discharge of their duties.’” 457 U.S. at 814. Those
concerns are magnified in the context of use of deadly force, where by
definition, an officer is confronted by the imminent threat of serious
harm to himself, or to others, and where hesitation could have deadly
consequences.
Indeed, this Court has repeatedly issued per curiam reversals of
lower court denials of qualified immunity in deadly force cases. In
doing so, the Court emphasized that such cases, which are necessarily
highly fact-dependent and concern tense, hectic circumstances, require
courts to closely analyze existing case law to determine whether the

8
law was clearly established within the particular circumstances
confronted by the officers in question.
In White v. Pauly, the Court held that an officer who arrived
belatedly to the scene of an evolving firefight could reasonably rely on
the actions of other officers in determining it was necessary to shoot a
suspect who fired at the officers. 137 S. Ct. at 550-51. The Court
observed that the highly unusual circumstances of the case should
have alerted the lower court to the fact that the law governing such
situations was not clearly established, and the officer was, indeed,
entitled to qualified immunity. Id. at 552.
In Kisela v. Hughes, __ U.S. __, 138 S. Ct. 1148 (2018) (per
curiam), the Court summarily reversed the Ninth Circuit’s denial of
qualified immunity to a police officer who received a 911 call reporting
a woman hacking a tree with a kitchen knife and acting erratically.
Id. at 1151. Shortly after arriving at the scene, the officer saw a
woman standing in a driveway. Id. The woman, separated from the
street and the officer by a chain-link fence, was soon approached by
another woman, who was carrying a kitchen knife and matched the
description that had been related to the officer via the 911 caller. Id.
With the knife-wielding woman only six feet away from what appeared
to be her potential victim, and separated by the chain-link fence, which
impaired the potential victim’s ability to flee and the officer’s ability to
physically intervene, when the woman refused commands to drop the
knife, the officer fired and wounded her. Id.
In reversing the Ninth Circuit, the Court underscored the
importance of applying qualified immunity to use of force cases, again

9
emphasizing the highly fact-specific nature of such claims, and the
relevance of the exceedingly narrow window of time in which officers
usually have to make such life or death decisions. Id. at 1153
(observing that “Kisela had mere seconds to assess the potential
danger to Chadwick”). As the Court noted:
Use of excessive force is an area of the law “in which the
result depends very much on the facts of each case,” and
thus police officers are entitled to qualified immunity
unless existing precedent “squarely governs” the specific
facts at issue. Precedent involving similar facts can help
move a case beyond the otherwise “hazy border between
excessive and acceptable force” and thereby provide an
officer notice that a specific use of force is unlawful.
Id. at 1153 (citing Mullenix, 577 U.S. at 13, 18).
In City of Escondido v. Emmons, __U.S. __, 139 S. Ct. 500 (2019)
(per curiam), the Court again reversed the denial of qualified
immunity to an officer where the Circuit court had defined the right at
issue at too high a level of generality, and had failed to identify any
case involving similar facts that would put an officer on notice that his
or her conduct could give rise to liability. In Emmons, an officer
sought entry into a residence to conduct a welfare check for reported
domestic abuse. Id. at 501. The plaintiff exited the residence, ignoring
the officer’s command not to close the door, and attempted to run past
the officer, who took him to the ground. Id. at 502.
In denying qualified immunity, the Ninth Circuit simply stated:
“‘The right to be free of excessive force was clearly established at the
time of the events in question. Gravelet-Blondin v. Shelton, 728 F.3d
1086, 1093 (9th Cir. 2013).’” Emmons, 139 S. Ct. at 502. This Court

10
noted that such a generalized statement of the law was improper, this
was a case involving active resistance to an officer and that “the Ninth
Circuit’s Gravelet-Blondin case law involved police force against
individuals engaged in passive resistance. The Court of Appeals made
no effort to explain how that case law prohibited Officer Craig’s actions
in this case.” Id. at 503-04.
The Court emphasized that this was “a problem under our
precedents”:
[W]e have stressed the need to identify a case where an
officer acting under similar circumstances was held to
have violated the Fourth Amendment. . . . While there
does not have to be a case directly on point, existing
precedent must place the lawfulness of the particular
[action] beyond debate. . . . Of course, there can be the
rare obvious case, where the unlawfulness of the officer’s
conduct is sufficiently clear even though existing
precedent does not address similar circumstances. . . .
But a body of relevant case law is usually necessary to
clearly establish the answer. . . . [District of Columbia v.]
Wesby, 583 U.S. at ___, 138 S. Ct. [577], at 581 [(2018)]
(internal quotation marks omitted).
Emmons, 139 S. Ct. at 504.
This Court has repeatedly recognized the importance of qualified
immunity, particularly in the context of use of force cases, as the Court
observed in White. Nonetheless, the lower federal courts have been
somewhat recalcitrant in following this Court’s dictates concerning the
need to apply the doctrine with rigor, particularly at the pre-trial
stage, thus repeatedly requiring this Court’s intervention. White, 137
S. Ct. at 551; Sheehan, 575 U.S. at 611 n.3 (collecting cases).

11
The Eighth Circuit’s decision here reflected the concerns voiced
by this Court for vindicating the important purposes of qualified
immunity, and adhered to this Court’s clear admonition to define
clearly established law with a high degree of specificity in the context
of Fourth Amendment cases in particular. As we discuss, petitioner
essentially espouses the very sort of generalized standard of the
underlying constitutional claim that this Court expressly rejected in
Emmons and its progeny, and the Eighth Circuit correctly found no
existing precedent that would have apprised respondent of potential
liability under the specific, split-second circumstances confronting her
here.
B.

No Clearly Established Law Put Respondent On
Notice That Her Use Of Force Might Violate The
Fourth Amendment.

As noted, this Court has repeatedly admonished the lower
appellate courts that other than in an obvious case, “officers are
entitled to qualified immunity unless existing precedent ‘squarely
governs’ the specific facts at issue.” Kisela, 138 S. Ct. at 1153 (citing
Mullenix, 577 U.S. at 13); White, 137 S. Ct. at 551. Here, as the Eighth
Circuit panel majority recognized, no existing precedent squarely
governs the facts confronted by respondent so as to put her on notice
that her use of force might be deemed improper under the Fourth
Amendment.
Indeed, the panel majority understood that petitioner’s
argument rested (and continues to rest) on the very premise this Court
decried in Emmons—defining the underlying right at a high level of

12
generality, i.e., that an officer may not use deadly force against a
fleeing suspect unless he or she “has probable cause to believe that the
suspect poses a threat of serious physical harm, either to the officer or
to others.” Tennessee v. Garner, 471 U.S. 1, 11 (1985). In fact, the
Court has emphasized that the excessive force standards set forth in
Garner and in Graham v. Connor, 490 U.S. 386 (1989), are “cast at a
high level of generality.” White, 137 S. Ct. at 552 (citing Brosseau v.
Haugen, 543 U.S. 194, 199 (2004) (per curiam) and Plumhoff v.
Rickard, 572 U.S. ___, ___, 134 S. Ct. 2012, 2023 (2014)).
Petitioner contends that this is nonetheless an “obvious” case of
a constitutional violation that does not require identification of any
factually similar case in order to sidestep qualified immunity and
impose liability under Hope v. Pelzer, 536 U.S. 730, 741 (2002).
According to petitioner, this is because respondent shot “Mr. Goffin in
the back from pointblank range without warning, knowing full well
Mr. Goffin was unarmed.” (Pet. 15 (emphasis added).) And on what is
that characterization based? As the panel majority recognized, it is
based on a patently legal conclusion, that as a matter of law, an officer
must rely on a brief pat down by a fellow officer as conclusively
establishing that a suspect known to be armed and dangerous, and still
unsecured by handcuffs, possesses no possible threat to justify use of
deadly force.
According to petitioner, “[h]ow an officer comes to learn a
suspect is unarmed does not change the applicability” of the “clearly
established rule” of Garner. (Pet. 16.) Yet, that is exactly the
proposition this Court expressly rejected in White. As noted, in White,

13
the key issue was whether the defendant officer could reasonably
believe his use of deadly force was warranted based upon the prior
actions of other officers. The Circuit court majority held there was no
qualified immunity based on application of the general Graham and
Garner standards, and this Court reversed, noting the state of the law
concerning an officer’s reliance on the conduct of other officers was the
key inquiry for purposes of determining qualified immunity:
Clearly established federal law does not prohibit a
reasonable officer who arrives late to an ongoing police
action in circumstances like this from assuming that
proper procedures, such as officer identification, have
already been followed. No settled Fourth Amendment
principle requires that officer to second-guess the earlier
steps already taken by his or her fellow officers in
instances like the one White confronted here.
137 S. Ct. at 552.
As the panel majority recognized, similarly, here there is no
“settled Fourth Amendment principle” that requires an officer to
assume that a brief, in-the-field pat down search of a reportedly armed
and dangerous suspect conclusively establishes the suspect is
unarmed, so as to eliminate any reasonable belief that use of deadly
force would be justified. Certainly, neither below nor here, has
petitioner made any attempt to identify any such case law, nor did the
panel dissenting judge cite any remotely similar case. As the Court
made clear in White, the apparently unique circumstances here
effectively compel qualified immunity. Id. at 552 (“[T]hat ‘this case
presents a unique set of facts and circumstances’ in light of White’s
late arrival on the scene,” “alone should have been an important

14
indication to the majority that White’s conduct did not violate a ‘clearly
established’ right.”).
Moreover, this case underscores with chilling reality why such a
per se assumption that a brief, in-the-field search of a reported armed
and dangerous suspect, conclusively eliminates any possible possession
of a weapon, is manifestly unreasonable, especially in light of the
absence of any case law discussing the issue. Notwithstanding
petitioner’s assertion that Officer Hines “searched every part of [his]
body” (Pet. 8)—a search which petitioner concedes did not include
going into his pockets (Pet. App. 3a)—officers subsequently found that
petitioner had not simply loose bullets in his pockets, but a loaded 9
mm magazine, an object comparable in size to many readily available
firearms. 1/
Indeed, under petitioner’s view, even if petitioner had a small
pistol and not just a loaded magazine in his pocket, this would still
somehow be an “obvious” case, as respondent Ashcraft would
purportedly have no grounds to believe petitioner might be armed until
she actually saw the weapon in petitioner’s hand, a delay that could
have deadly consequences for the officers and bystanders. Nothing in
this Court’s jurisprudence, nor that of the Eighth Circuit,
countenances such a risk to public safety. See Thompson v. Hubbard,
1/For

example, a compact revolver can be a little over 6.6 inches and weigh only
14 ounces. <https://www.smith-wesson.com/product/bodyguard-38> [last visited
July 12, 2021]. A Ruger LCP II is a mere 5.2 inches in length and weighs 11.2
ounces. https://ruger.com/products/lcpII/specSheets/13705.html> [last visited
July 12, 2021]. A Kel-Tec P32 is 5.1 inches long, and weighs 7 ounces.
<https://www.keltecweapons.com/firearms/pistols/p32/> [last visited July 12, 2021].
A 22 caliber NAA-22S is a mere 3.6 inches long and weighs only 4 ounces.
<https://northamericanarms.com/shop/firearms/naa-22s/> [last visited July 12, 2021].

15
257 F.3d 896, 899 (8th Cir. 2001) (“An officer is not constitutionally
required to wait until he sets eyes upon the weapon before employing
deadly force to protect himself against a fleeing suspect who turns and
moves as though to draw a gun.”).
That brief, in-the-field pat down searches do not necessarily
assure other officers that a suspect is unarmed is a fact of life for law
enforcement. 2/ Whatever practical experience tells officers in this
regard, as the panel majority recognized, no existing legal authority—
certainly none offered by petitioner—dictates that an officer must rely
on a brief in-the-field search by a fellow officer to dispel any threat
that a suspect might pose.
Moreover, as the Court made plain in White, circumstances
surrounding the uses of force matter for purposes of qualified
immunity. This was not a fully restrained prisoner in custody, nor an
individual subject to a full blown, stripped down body search incident
to imprisonment, but a suspect who had been reported to be armed and
dangerous, had just been taken into custody for serious crimes, and not
even handcuffed at the time he made a sudden attempt to flee. No
case law would have put respondent on notice that her use of deadly
force under the specific circumstances she confronted, would cross the
“hazy” border between reasonable and excessive force. The Eighth
2/See,

e.g., Bogosian, I thought you did it: the importance of searching suspects
well (July 27, 2015) <https://www.police1.com/police-products/apparel/articles/ithought-you-did-it-the-importance-of-searching-suspects-well-cVxHDeG3aa
NM5GBZ/> [last visited July 12, 2021], noting author’s experience of “several
instances over the years where, for whatever reason, an initial search has not yielded
the fact that the individual was still armed—including once where I was told the
suspect had been searched, and found a machete strapped down the middle of their
back.”

16
Circuit correctly applied the controlling decisions of this Court and
granted respondent qualified immunity.
C.

Petitioner Identifies No Conflict Among The
Circuits On An Important Issue of Law Warranting
Intervention By This Court.

As noted, petitioner makes no claim that there is any existing
case law addressing the specific facts confronting respondent, more
particularly, no case law suggesting that an officer must rely on
another officer’s in-the-field pat down search of a suspect as
indisputably establishing that a reported armed and dangerous
suspect is unarmed. Instead, petitioner argues that this is an
“obvious” case under Hope, and attempts to manufacture a conflict by
asserting that, unlike the Eighth Circuit here, other Circuits have
found the “clearly established law” prong of qualified immunity to be
irrelevant, given that violation of the Garner standard is “obvious”
where facts dispel an officer’s belief that a suspect poses a threat.
(Pet. 17-23.) Yet, review of the cited cases belies petitioner’s argument.
In O’Bert ex rel. Estate of O’Bert v. Vargo, 331 F.3d 29 (2d Cir.
2003) officers were summoned to a domestic dispute and advised by
the victim standing outside the residence that she had been beaten and
that her husband was inside. Id. at 33. When they called for the
suspect to come out, he replied, “I will blow your fucking heads off.” Id.
When asked if the suspect was armed, the victim noted that there were
rifles in the house. Id. An officer observed the suspect prior to entry,
who did not appear to be carrying a weapon. Id. When the officers
entered, one attempted to tackle the still visibly unarmed suspect, who

17
suddenly lunged away, prompting another officer to shoot him. Id. at
34.
In affirming the denial of summary judgment to the officer, the
Second Circuit held that if plaintiff’s version of the facts was credited,
the officer might be liable for excessive force, as there was no reason to
believe that the suspect might be armed. Id. (“By reason of the earlier
conversations with Miller, the officers knew or had reason to know that
O’Bert only had a rifle or long gun for hunting, not a handgun that
would have been concealed as he stood there”). That of course is
nothing like this case, where, as noted, the officers were summoned
precisely because petitioner was armed and considered dangerous.
Moreover, in O’Bert, the defendant officer never purported to argue,
nor did the court have reason to decide, whether the conduct at issue
violated clearly established law: The officer’s sole argument on appeal
was that the force used was reasonable as a matter of law. Id. at 36
(“On appeal, Vargo contends that he is entitled to qualified immunity
as a matter of law on the ground that, even on plaintiff’s version of the
events, which Vargo states he adopts for these purposes, it was
objectively reasonable for him to use deadly force against O’Bert in the
belief that O’Bert posed an immediate threat of death or serious injury
to Vargo and/or the other officers.”).
Petitioner urges via footnote, that in Davis v. Little, 851 F.2d
605, 606-08 (2d Cir. 1988) the court affirmed a judgment in a bench
trial finding an “officer guilty of violating the plaintiff’s Fourth
Amendment rights where the officer patted the plaintiff down, put him
in the back of the police car, the plaintiff got out and tried to escape,

18
and the officer shot him from behind.” (Pet. 19 n.3.) Omitted from
petitioner’s account is the fact that the plaintiff was not wanted for any
violent felony, nor did the officer have any reason to believe he was
armed. 851 F.2d at 607 (“Magistrate Smith found that at the time of
the shooting Officer Little knew that Davis was an escaped felon who
was in flight from Officer Cleveland’s custody, that Davis was
unarmed, and that Davis had made no threat to use deadly force on
them or on any third party.”) (emphasis added). Again, in contrast,
here, the officers were responding to reports that petitioner was armed
and dangerous.
Nor does Streater v. Wilson, 565 F. App’x. 208 (4th Cir. 2014),
another factually dissimilar case, support petitioner’s argument. In
Streater, officers responded to the scene of a stabbing where they were
informed the assailant had already fled and weighed approximately
240 pounds. Id. at 209. The victim’s minor son, weighing between 115
and 120 pounds, was “walking quickly toward the scene” and “carrying
a kitchen knife that he picked up at home after learning that his
mother had been stabbed.” Id. Observing the knife, the officer
unholstered his gun and told the son to drop his knife three times. Id.
The son “failed to immediately comply and continued to approach.” Id.
The son stopped 31.9 feet from the officer and dropped his knife. Id.
Nevertheless, the officer fired a total of four shots, hitting the son
twice. Id. In affirming the denial of qualified immunity to the officer
the court noted that there was simply no justification for the final two
shots, taken after the officer could plainly see the son had no weapon.
Id. at 211 (“At the point when Officer Wilson chose to fire a third and

19
then a fourth shot, he knew or should have known that J.G. was over
30 feet away, standing still, unarmed, complying with his orders, and
making no attempt to escape. His mistaken belief that J.G. posed an
immediate threat of serious physical injury to himself or to Officer
Helms and civilians, who were even further away, was objectively
unreasonable.”).
The same is true of A.K.H. by & through Landeros v. City of
Tustin, 837 F.3d 1005 (9th Cir. 2016) which, unlike here, involved the
shooting of a suspect who was not even suspected of possessing a
weapon or posing a threat of any kind. There, officers were told by the
suspect’s girlfriend that he had stolen her phone by grabbing it from
her hand and she expressly noted he did not threaten her with any
weapon, nor did he carry one. Id. at 1008. While detaining the suspect
in the middle of the street for an investigatory stop, an officer shot the
suspect, asserting that he believed the suspect might be pulling a
weapon from his pocket. Id. at 1009. In affirming the denial of
qualified immunity, the court noted the absence of any evidence
indicating the officer could reasonably believe the suspect was armed
and would pose any threat. Id. (“It is undisputed that Herrera was
unarmed. Ramirez had reported to the police dispatcher that Herrera
did not carry weapons. The dispatcher had reported to the officers that
Herrera ‘is not known to carry weapons.’”).
Carr v. Castle, 337 F.3d 1221 (10th Cir. 2003) is also inapposite
to the present case. In Carr, the court affirmed the denial of qualified
immunity to officers who shot a suspect who was purportedly about to
strike them with a block of concrete, because there was evidence that

20
the suspect no longer had the concrete block at the time he was shot,
and in fact had his back turned to the officers, posing no threat. Id. at
1227 (“[T]he testimony of witness Williams expressly said that Randall
was no longer holding the concrete at the time the shots were fired.
And it will also be remembered that the forensic evidence was that the
entire fusillade of shots struck Randall from the back.”).
Petitioner has failed to identify any division among the lower
federal appellate courts on any issue relevant to the constitutional
claims asserted here. There are no grounds for review by this Court.
D.

There Is No Basis For Remand Based On Of This
Court’s Decision In Taylor v. Riojas.

As a fallback position, petitioner contends that at the very least,
this Court should grant the petition and remand the matter to the
Eighth Circuit to consider the impact of this Court’s decision in Taylor
v. Riojas, ___U.S. ___, 141 S. Ct. 52 (2020). (Pet. 23.) Yet, this is only
a different spin on petitioner’s contention that any constitutional
violation here is “obvious,” which, as noted, simply does not withstand
scrutiny.
Indeed, if anything, Taylor underscores the type of egregious,
manifestly unconstitutional conduct that can be deemed “obvious,” so
as to avoid the need to point to clearly established law. In Taylor,
correctional officers were sued for subjecting a prisoner to deplorable
unsanitary conditions of confinement, including failure to afford proper
toilet facilities. The Fifth Circuit held that the officers were entitled to
qualified immunity given the absence of any clearly established law
imposing liability under closely similar facts.

21
The Court reversed in a per curiam opinion. Citing Hope, 536
U.S. 730, 741, the Court noted that given the egregious nature of the
alleged conduct—holding the prisoner for six days without toilet
facilities and “teeming in human waste”—the officers had fair notice
that their conduct violated the Eighth Amendment, even in the
absence of a case directly on point. 141 S. Ct. at 53-54.
In contrast, what we have here is a decision made by an officer
in the field under tense, rapidly evolving circumstances, in a Fourth
Amendment claim involving evaluation of a broad universe of facts
that utterly defies any categorization as “obvious.” Indeed, the
complete absence of any cited case law to the effect that a pat down
search of a reportedly armed and dangerous suspect necessarily
removes all doubt about the risk posed by the suspect underscores the
less than obvious nature of any purported constitutional violation here.
There is no basis to remand for reconsideration in light of Taylor. 3/
_________________♦_________________

3/Nor

would remand in light of the Court’s recent decision in in Lombardo v. City
of St. Louis, No. 20-391, __ U.S. __, 2021 WL 2637856 (June 28, 2021), be
appropriate. Lombardo did not involve determination of clearly established law for
purposes of qualified immunity. The Court reversed the Eighth Circuit’s
determination that force employed against a restrained, but resisting suspect was
per se reasonable, and remanded for the lower court to consider all factors pertinent
to the merits inquiry. Id. at *2.

22
CONCLUSION
For the foregoing reasons, respondent respectfully submits that
the petition for writ of certiorari should be denied.
Respectfully submitted,
Timothy T. Coates
Counsel of Record
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com
Jenna A. Adams
ARKANSAS MUNICIPAL LEAGUE
Post Office Box 38
North Little Rock, Arkansas 72115
Telephone: (501) 978-6136
Facsimile: (501) 978-6567
E-mail: jenadams@arml.org
Counsel for Respondent ROBBIE K. ASHCRAFT,
Individually and Official Capacity as Police
Officer Warren, AR

